    Office of Inspector General
    Audit Report




Superfund Sites Deferred to RCRA
        E1SFF8-11-0006-9100116
            March 31, 1999
Inspector General Division(s)   Headquarters Audit Division
 Conducting the Audit           Washington, DC

                                Eastern Audit Division
                                Boston, MA

                                Mid-Atlantic Audit Division
                                Philadelphia, PA

                                Northern Audit Division
                                Chicago, IL

                                Western Audit Division
                                San Francisco, CA


Region(s) covered               Region 2
                                New York, NY

                                Region 3
                                Philadelphia, PA

                                Region 5
                                Chicago, IL

                                Region 9
                                San Francisco, CA


Program Office(s) Involved      Office of Solid Waste and Emergency Response
                                - Office of Emergency and Remedial Response
                                - Office of Solid Waste
                       UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    WASHINGTON, D.C. 20460




                                                                               OFFICE OF
                                                                        THE INSPECTOR GENERAL


                                     March 31, 1999

MEMORANDUM

SUBJECT:     Superfund Sites Deferred To RCRA
             Audit Report E1SFF8-11-0006-9100116

FROM:        Michael Simmons /s/ Michael Simmons
             Deputy Assistant Inspector General
              for Internal Audits

TO:          Timothy Fields, Jr.
             Acting Assistant Administrator
              for Solid Waste and Emergency Response

      Attached is the subject audit report. Generally, we found that: (1) the deferral
program goal has not yet been achieved, (2) many sites were inappropriate for deferral,
and (3) EPA did not know the cleanup status of some sites.

       In accordance with EPA Order 2750, please provide this office a written
response to the report within 90 days of the report date. For corrective actions planned
but not yet completed by your response date, reference to specific milestone dates will
assist us in deciding whether to close this report.

       This audit report contains findings and corrective actions the OIG recommends
to help improve the RCRA Deferral program. As such, it represents the opinion of the
OIG. Final determinations on matters in this report will be made by EPA managers in
accordance with established audit resolution procedures. Accordingly, the issues
contained in this report do not represent the final EPA position, and are not binding
upon EPA in any enforcement proceeding brought by EPA or the Department of
Justice.

        Again, we would like to thank your staff for their cooperation. Should your staff
have questions about this report, please have them contact Norman E. Roth, Divisional
Inspector General, Headquarters Audit Division at 202-260-5113, or Bill Samuel of my
staff at 202-260-3189.

Attachment
               EXECUTIVE SUMMARY

INTRODUCTION        The Comprehensive Environmental Response,
                    Compensation and Liability Act (CERCLA) or
                    “Superfund” was enacted in 1980 to clean up the
                    worst abandoned or inactive waste sites in the nation.
                    In 1984, amendments to the Resource Conservation
                    and Recovery Act (RCRA) authorized EPA to compel
                    owners of RCRA hazardous waste treatment,
                    storage, and disposal (TSDF) facilities to clean up
                    releases of hazardous wastes and constituents at
                    their facilities. This cleanup process is referred to as
                    RCRA corrective action. Sites that have been
                    prioritized and in the cleanup universe are called the
                    corrective action workload. Using authorities granted
                    under both statutes has enabled EPA to effect
                    cleanup of hazardous wastes at all sites--active,
                    inactive, or abandoned.

                    EPA developed a policy to “...maximize the number of
                    site responses achieved through the RCRA corrective
                    action authorities, thus preserving the CERCLA Fund
                    for sites for which no other authority is available.”
                    Sites had to be subject to the corrective action
                    authorities of RCRA Subtitle C in order to be
                    deferred. The Agency’s Superfund program has
                    transferred cleanup responsibility for approximately
                    3,000 sites to the RCRA program. For the purposes
                    of this report, we will refer to sites transferred out of
                    Superfund as deferred sites, and the process by
                    which this activity occurs as a deferral.


OBJECTIVES          We had three objectives.

                    1. Has the National Priorities List (NPL)/RCRA
                    deferral policy achieved its goal?




                                                            Report No. 9100116
                   2. Were the deferrals made in accordance with the
                   policy?

                   3. Were procedures for deferring sites from one
                   program to another effective?


RESULTS IN BRIEF   In our view, EPA’s deferral program has not achieved
                   its goal of effecting more cleanups using RCRA
                   corrective action authorities. The Resource
                   Conservation and Recovery Act Information System
                   (RCRIS) indicates that less than 2 percent of deferred
                   sites have been cleaned up1. (See Appendix 6 for
                   endnotes.) Only about 30 percent of the deferred
                   sites are in the RCRA corrective action workload.
                   However, many of those have cleanup activities in
                   progress. GAO, in an October 1997, report entitled,
                   “Progress Under the Corrective Action Program Is
                   Limited, But New Initiatives May Accelerate
                   Cleanups,” credits the Agency for having begun
                   cleanups at about half of the sites in the corrective
                   action workload.

                   In contrast to cleanup activity in the corrective action
                   workload, the remaining deferred sites (70 percent),
                   are not in the corrective action workload, and are
                   unlikely candidates for cleanup in the near future.
                   RCRIS reported that cleanup had begun at only
                   about 3 percent of our statistically sampled sites not
                   in the corrective action workload.

                   We cannot say that deferred sites not included in the
                   corrective action workload would have been any
                   further in the cleanup process in the Superfund
                   program if they had not been deferred. We can say
                   that deferred sites which are not in the corrective
                   action workload have a much reduced chance of
                   being addressed. Furthermore, while not all deferred
                   sites may pose a current threat to human health and
                   the environment and some states may have taken
                   cleanup actions not reflected in information we
                   obtained, many sites may still pose serious risks. For



                             ii                            Report No. 9100116
                  example, about one-third of the deferred sampled
                  sites having Hazard Ranking System (HRS) scores
                  not in the RCRA corrective action workload had
                  scores high enough to be potentially eligible for
                  placement on the NPL.

                  EPA needs to review and improve its policies and
                  procedures for deferring sites. Chapter 3 discusses
                  sites which, according to Agency policy, should not
                  have been deferred from Superfund to RCRA. Sixty-
                  seven percent (210 out of 313) of the sampled sites
                  not in the corrective action workload fell into this
                  category. Sampled sites inappropriate for deferral
                  had been in EPA’s inventory an average of about 17
                  years. In addition, as discussed in Chapter 4, we
                  could not readily locate another 253 sites. For some
                  of these sites, the states informed us that actions had
                  been taken or were underway.

                  This report contains recommendations to address
                  those sites which were inappropriate for deferral or
                  could not readily be found, and to improve
                  communication and decisions for future deferrals.
                  Chief among these is our recommendation that EPA
                  and the states conduct a cooperative effort to
                  evaluate sites’ current cleanup needs. EPA and
                  states will need to determine which program has
                  available resources and legal authority to address
                  sites starting with those that pose the greatest threats
                  to human health and the environment.

AGENCY COMMENTS   The Acting Assistant Administrator for Solid Waste
                  and Emergency Response indicated that (1) the
                  findings and recommendations will improve the
                  efficiency of the deferral process, and (2) OSWER is
                  prepared to reassess many of the site management
                  decisions to ensure that EPA and state response
                  efforts protect human health and the environment.

                  The Acting Assistant Administrator also suggested
                  that we revise various parts of the report to clarify the
                  issues discussed.



                           iii                             Report No. 9100116
We made necessary revisions, and have included the
full text of the Acting Assistant Administrator’s
comments and the OIG evaluation of the comments
as Appendix 4.




        iv                         Report No. 9100116
                            TABLE OF CONTENTS

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . vii

CHAPTER 1 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    1
INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .         1
     Objectives . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      1
     Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        1
     Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                 4

CHAPTER 2 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
DEFERRAL PROGRAM GOAL NOT ACHIEVED . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
    Most RCRA Deferrals Not in the Corrective Action Workload . . . . . . . . . . . . . . 6
    Sixty-seven Percent of Sites Inappropriate for Deferral . . . . . . . . . . . . . . . . . . . 7
    RCRIS Indicates Sites Not Being Cleaned up . . . . . . . . . . . . . . . . . . . . . . . . . . 7
    Deferral Program Goal Not Achieved . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
    Next Steps . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
    Recommendation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

CHAPTER 3 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     12
MANY SITES WERE INAPPROPRIATE FOR DEFERRAL . . . . . . . . . . . . . . . . . . . .                                            12
    67% of Sites Inappropriate for Deferral to RCRA . . . . . . . . . . . . . . . . . . . . . .                               13
    Better Communication and Adherence to Policy Would Improve Decisions . .                                                  14
    Deferred Sites May Need Attention . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                       16
           First Example . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              17
           Second Example . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                 18
    Conclusions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .         19
    Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               20

CHAPTER 4 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     21
EPA DID NOT KNOW CLEANUP STATUS OF SOME SITES . . . . . . . . . . . . . . . . . .                                             21
     Deferred Sites Not in RCRIS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                  21
           ID Number Changed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                    22
           Deferred to Another EPA Program . . . . . . . . . . . . . . . . . . . . . . . . . . . .                            22
           Deferred to States . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               23
           Status Unknown to EPA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                      26


                                                              v                                         Report No. 9100116
         Communication And Procedures Need Strengthening . . . . . . . . . . . . . . . . . . 28
         Conclusions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29
         Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30

APPENDIX 1 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32
Scope, Methodology, And Prior Audit Coverage . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32

APPENDIX 2 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 37
Details of Sites Inappropriate For Deferral . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 37

APPENDIX 3 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 40
Information on Sites Not Inappropriate For Deferral . . . . . . . . . . . . . . . . . . . . . . . . . 40

APPENDIX 4 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 42
Agency Response And OIG Evaluation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 42

APPENDIX 5 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 46
Distribution . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 46

APPENDIX 6 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 47
Endnotes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 47




                                                               vi                                         Report No. 9100116
             ABBREVIATIONS
CERCLA    Comprehensive Environmental Response, Compensation and
          Liability Act (1980)
CERCLIS   Comprehensive Environmental Response, Compensation and
          Liability Act Information System
GAO       U.S. General Accounting Office
HRS       Hazard Ranking System
HSWA      Hazardous and Solid Waste Amendments
NCAPS     National Corrective Action Prioritization System
NCP       National Oil and Hazardous Substances
           Pollution Contingency Plan
NPL       National Priorities List
OSWER     Office of Solid Waste and Emergency Response
RCRA      Resource Conservation and Recovery Act
RCRIS     Resource Conservation and Recovery Act Information System
TSCA      Toxic Substances and Control Act
TSDF      Treatment, Storage or Disposal Facility




                                 vii                         Report No. 9100116
                               CHAPTER 1
                               INTRODUCTION



OBJECTIVES                     In response to a request from the Office of Solid
                               Waste and Emergency Response (OSWER), we
                               have performed an audit of sites deferred from the
                               Superfund program to RCRA. We had three
                               objectives.

                               1. Has the National Priorities List (NPL)/RCRA
                               deferral policy achieved its goal?

                               2. Were the deferrals made in accordance with the
                               policy?

                               3. Were procedures for deferring sites from one
                               program to another effective?

BACKGROUND                     CERCLA was enacted in 1980 in response to the
                               dangers of uncontrolled or abandoned hazardous
                               waste sites. To implement CERCLA, EPA revised the
                               National Oil and Hazardous Substances Pollution
                               Contingency Plan (NCP).

The National Priorities List   CERCLA requires that the NCP include a list of
                               national priorities among the known releases or
                               threatened releases of hazardous substances,
                               pollutants, or contaminants throughout the United
                               States. EPA is to revise the NPL at least annually.
                               The principal mechanism for determining these
                               priorities is the Hazard Ranking System (HRS). EPA
                               calculates the HRS score by estimating risks
                               presented in four potential pathways of human or
                               environmental exposure: groundwater, surface water,
                               soil and air. Numerical values are computed for each
                               factor within the four categories to arrive at a final site
                               score on a scale of 0 to 100. Those sites that score




                                         1                               Report No. 9100116
                      28.50 or greater on the HRS are potentially eligible
                      for the NPL.

The NPL/RCRA Policy   Since the NPL was first published as a final rule
                      (September 8, 1983), the Agency’s policy has been to
                      defer listing sites that could be addressed by RCRA
                      Subtitle C corrective action authorities, even though
                      EPA has the statutory authority to list all RCRA sites
                      that have an HRS score of 28.50 or greater. The
                      enactment of the Hazardous and Solid Waste
                      Amendments (HSWA) in 1984 greatly expanded
                      RCRA Subtitle C corrective action authorities. As a
                      result, the Agency publicized its policy to defer to the
                      RCRA program sites subject to RCRA corrective
                      action authorities unless and until the Agency
                      determined that RCRA corrective action was not likely
                      to succeed or occur promptly. The RCRA Deferral
                      policy states that the intent of the policy was to
                      maximize the number of site responses achieved
                      through the RCRA corrective action authorities, thus
                      preserving the CERCLA Fund for sites for which no
                      other authority is available.

                      In 1986, EPA decided that certain RCRA waste sites
                      would continue to be placed on the NPL and not
                      deferred to RCRA. The sites included, among others,
                      generators or transporters of hazardous waste, which
                      are not required to have a final RCRA permit. In
                      1988, four new categories of handlers were to be
                      considered for listing and not deferred: (1) non- or
                      late-filers for RCRA permits [Treatment, Storage, or
                      Disposal (TSDFs) who do not file for RCRA permits
                      or file late]; (2) converters (TSDFs that closed or
                      became generators only); (3) protective filers
                      (handlers that filed as a TSDF for a RCRA permit to
                      protect themselves from the penalties of failing to file,
                      but were later determined not to be TSDFs); and (4)
                      sites holding permits before the enactment of HSWA.

                      According to data from the Comprehensive
                      Environmental Response, Compensation and Liability
                      Act Information System (CERCLIS), 2,941 sites were
                      deferred from the Superfund program. According to


                                2                             Report No. 9100116
                           deferral dates we located, these sites were deferred
                           between fiscal years 1983 and 1997. Approximately
                           two-thirds of the deferrals occurred as a result of the
                           Agency’s Environmental Priorities Initiative (the
                           Initiative).

Environmental Priorities   The Initiative, which began in 1988 and ended in
Initiative                 fiscal 1992, was designed to utilize Superfund
                           resources to assist RCRA activities in regional offices
                           in setting corrective action priorities. This would allow
                           the Agency to address in a timely manner those sites
                           that presented the greatest threat to human health
                           and the environment. To accomplish this objective,
                           Headquarters officials provided regional officials with
                           a list of active storage and treatment facilities, as well
                           as closing treatment, storage, and disposal facilities.
                           These deferrals would be recorded in the CERCLIS
                           inventory. Superfund resources would then be used
                           to complete a preliminary assessment, and in some
                           cases, a site inspection/ RCRA Facility Assessment
                           for each site. RCRA officials would use these
                           assessments to determine the site’s priority in the
                           RCRA corrective action workload, to estimate
                           environmental significance, and to provide a basis for
                           permitting or enforcement action.

                           Since Agency guidance does not supersede federal
                           rule, the deferrals of the Initiative sites back to RCRA
                           should have been consistent with criteria enumerated
                           in 40 CFR Part 300 (the NPL/RCRA deferral policy).
                           For this reason, we did not differentiate Initiative
                           deferrals from non-Initiative deferrals in sample
                           selection or for reporting purposes. We do, however,
                           recognize that the Initiative was the cause of
                           approximately two-thirds of the deferrals in the
                           universe.

Archived Sites             Seven hundred and forty (740) of the 2,941 deferred
                           facilities were classified as sites awaiting a Superfund
                           decision (active in CERCLIS), while 2,201 were
                           archived (inactive) from CERCLIS. EPA introduced
                           the CERCLIS archiving effort in 1995, as part of the
                           Agency’s Brownfields Initiative on economic


                                     3                              Report No. 9100116
                            redevelopment. When sites are archived, no further
                            interest under the federal Superfund program exists.
                            The Agency created the archive list to address the
                            concern that sites listed in CERCLIS carried a
                            perceived potential threat for Superfund liability (also
                            known as the “CERCLIS stigma.”) Once sites are
                            deferred to RCRA, they should also be archived from
                            CERCLIS, if no further federal Superfund interest
                            exists.


SCOPE AND METHODOLOGY We conducted this audit from March 1998 to January
                      1999. To accomplish the objectives, we conducted
                      fieldwork in Headquarters OSWER and in Regions 2,
                      3, 5, and 9. OSWER provided us with the universe of
                      sites deferred from Superfund. From this CERCLIS
                      data, we selected the above four regions primarily
                      based on the total number of deferrals, the status of
                      state corrective action authority, and the number of
                      sites not appearing in RCRIS. The four regions
                      selected contained over 50 percent of all sites
                      deferred, and over 70 percent of the deferred sites
                      which did not appear in the corrective action
                      workload. Appendix 1 presents additional information
                      on the scope, methodology, and prior audit coverage.

                            We performed our audit in accordance with the U.S.
                            General Accounting Office’s (GAO’s) Government
                            Auditing Standards, issued by the Comptroller
                            General of the United States (1994 Revision). We
                            also reviewed OSWER’s Federal Managers’
                            Financial Integrity Act reports for fiscal years 1997
                            and 1998. The reports did not identify any material
                            weaknesses or vulnerabilities related to RCRA
                            deferrals. We did not detect any control weaknesses
                            except for those discussed in this report.




                                      4                             Report No. 9100116
         CHAPTER 2
DEFERRAL PROGRAM GOAL NOT ACHIEVED



           Since the NPL/RCRA deferral policy was published in
           1983, Superfund officials have transferred cleanup
           responsibility to RCRA for approximately 3,000 sites.
           The universe for cleanups under RCRA Subtitle C
           authority is called the corrective action workload.
           However, RCRIS indicates that less than one-third of
           the sites deferred from Superfund are in the
           corrective action workload. When we looked more
           closely at sites not in the workload, we found that in
           our four-region sample, 67 percent of the sites were
           inappropriate for deferral.

           Although almost 3,000 sites were deferred, according
           to RCRIS only 49 have been cleaned up, and 32 of
           those cleanups were from the corrective action
           workload. The fact that sites were not in the
           corrective action workload does not mean that the
           sites are low or no risk. About one-third of all sites
           scored but not in the corrective action workload had
           HRS scores which were high enough to be
           considered for listing on the NPL.

           Deferring sites to RCRA which do not meet the
           criteria for placement in the corrective action
           workload will not maximize cleanups. RCRA focuses
           its resources on cleaning up sites in the corrective
           workload. Sites not in the workload will not normally
           be a priority for cleanup. Because so many of these
           sites were inappropriate for deferral, Superfund and
           RCRA officials will now have to revisit and perhaps
           reassess and score many of them, especially those
           that have the greatest risk to human health and the
           environment.




                    5                            Report No. 9100116
MOST RCRA          The intent of the NPL/RCRA deferral policy was to
DEFERRALS NOT IN   maximize the number of site responses by using
THE CORRECTIVE     RCRA cleanup authorities. At the time the policy was
ACTION WORKLOAD    developed (1983 - 1989), there were thousands of
                   sites needing Superfund attention, but a finite amount
                   of resources in the Fund. The policy would preserve
                   the Fund for use on sites where there was no other
                   cleanup authority and at the same time effect cleanup
                   of some of these sites using RCRA corrective action
                   authorities.

                   EPA has determined which facilities it considers to be
                   its universe for cleanups under the Corrective Action
                   Program and has identified them as the corrective
                   action workload universe within RCRIS. Sites are in
                   the corrective action workload because the facility
                   owners are seeking or have a permit to treat, store,
                   and dispose of hazardous materials. A site may also
                   be in the workload when a facility owner volunteers to
                   begin corrective action or when a state makes the
                   site a priority. EPA and state resources and cleanup
                   efforts are focused on those sites in the corrective
                   action workload.

                   However, RCRA analysis of CERCLIS data from April
                   1998, showed that of the 2,941 sites deferred, only
                   842 (29 percent) were in the corrective action
                   workload. The following pie chart shows the status of
                   sites deferred to RCRA.

                                              Superfund Sites
                                             Deferred To RCRA


                                          Status Unknown
                                                 253
                                                                     CA Workload (In RCRIS)
                                                                               842




                     Not in CA Workload (In RCRIS)
                                   1846

                                                       Total: 2941




                                 6                                    Report No. 9100116
SIXTY-SEVEN PERCENT   We found that in the four regions sampled (which
OF SITES              included 1,388 of the 1,846 sites not in the corrective
INAPPROPRIATE FOR     action workload) 67 percent of the sites were
DEFERRAL              inappropriate for deferral. Most were inappropriate
                      because the facility owners were no longer seeking a
                      permit to function as a TSDF. Therefore, these sites
                      would not be in the corrective action workload. We
                      learned from our sample that the sites inappropriate
                      for deferral have been in EPA’s inventory an average
                      of about 17 years, and 29 of 108 (26%) of the
                      sampled sites having HRS scores had scores high
                      enough to be considered for the NPL. Chapter 3
                      provides a detailed discussion of the sites that were
                      not in the corrective action workload and were
                      inappropriate for deferral.

                      Further, approximately 10 percent (253) of the
                      deferred sites did not appear in the RCRIS database.
                      We discuss these sites in Chapter 4. Therefore, we
                      will limit discussion for the rest of this chapter to the
                      2,688 sites in RCRIS–those in the corrective action
                      workload (842) and those not in the corrective action
                      workload (1,846).

RCRIS INDICATES       RCRIS indicates that of the 2,688 sites deferred from
SITES NOT BEING       Superfund, 49 (less than 2%) have been cleaned up.
CLEANED UP            Of these 49 sites, 32 were in the corrective action
                      workload and 17 were not. GAO, in an October 1997,
                      report entitled, “Progress Under the Corrective Action
                      Program Is Limited, But New Initiatives May
                      Accelerate Cleanups,” credits the Agency for having
                      begun cleanups at about half of the sites in the
                      corrective action workload.

                      In contrast to cleanup activity in the corrective action
                      workload, RCRIS reported that cleanup had begun at
                      about only 3% of our statistically sampled sites not in
                      the corrective action workload. Stated another way,
                      97% of the sites not in the corrective action workload
                      have not been addressed beyond prioritization. This
                      would be consistent with the Agency’s decision to


                                7                              Report No. 9100116
                    focus resources on sites in the corrective action
                    workload.

                    The fact that sites did not get in the corrective action
                    workload does not mean that the sites contain low or
                    no risk to human health and the environment. We
                    reviewed HRS scores for all of the sampled sites that
                    did not appear in the corrective action workload and
                    found that about one-third, or 86 of the 242 sites that
                    had been scored, had HRS scores which were high
                    enough to be considered for listing on the NPL. We
                    learned from our statistical sample that sites not in
                    the corrective action workload have been in EPA’s
                    inventory for about 17 years on average.

DEFERRAL PROGRAM    In conclusion, the low number of completed cleanups,
GOAL NOT ACHIEVED   the low percentage of deferred sites in the corrective
                    action workload, and the long amount of time the
                    sites not in the corrective action workload have been
                    in EPA’s inventory with little or no activity beyond
                    prioritization, suggest that the NPL/RCRA deferral
                    policy has not achieved its objective. Because sites
                    not in the corrective action workload are not expected
                    to be addressed using corrective action “promptly” or
                    any time in the near future, the intent of the policy
                    would not be met and cleanup of these deferrals
                    would not be maximized. Because so many of these
                    sites were inappropriate for deferral, Superfund and
                    RCRA officials will now have to revisit, and perhaps
                    reassess and score, many of these deferred sites,
                    especially those having the greatest risk to human
                    health and the environment.

NEXT STEPS          The results of our audit suggest that the Agency
                    needs to revisit many of these deferred sites. Based
                    on our audit work, we are suggesting an approach
                    which may enable Agency officials to prioritize their
                    efforts to focus first on those sites which pose the
                    greatest risk.

                    We suggest that Agency officials start with deferred
                    sites not in the corrective action workload, since they
                    are not normally a priority for RCRA. These would


                              8                             Report No. 9100116
include all sites not in the corrective action workload,
whether or not we considered them to be appropriate
for deferral.

During our four-region review, we found that only
about half of the sites deferred to RCRA had HRS
scores. We would suggest reviewing unscored sites
to determine the severity of the threats posed by
these sites and their eligibility for listing on the NPL.
Recognizing that some of the scores on scored sites
may be based on old HRS criteria, updating the
scores of some sites may be appropriate as well.

To complete the universe of deferred sites with HRS
scores not in the corrective action workload,
Superfund and RCRA officials must also locate all of
the 253 status unknown sites (discussed in Chapter
4). They should determine whether they are RCRA
deferrals (some in our sample were state Superfund
sites) not in the corrective action workload, and score
them if necessary.

Once the universe is identified, we suggest that
Agency officials look first at sites that had HRS
scores of 28.5 or higher, or sites that were assigned a
high NCAPS ranking in RCRIS. We initially expected
to find a great deal of overlap of sites ranked high in
Superfund and high in RCRA because the NCAPS is
based on the HRS. We did not find this to be the
case. In fact, the HRS scores and the NCAPS priority
rankings did not usually correlate. For example, a
site with an HRS score of 28.5 or above may have
been assigned a medium, low or no priority in RCRA.
Conversely, there were sites with HRS scores below
28.5 with high priority assignments in RCRA.
Though we did not audit for the cause of this lack in
correlation, Agency officials and we speculated at an
exit conference that this could be caused by the age
of some HRS scores or that NCAPS rankings were
amended after interim actions. Nevertheless,
because we cannot be confident of this speculation,
we believe that the lack of correlation in the HRS



          9                              Report No. 9100116
scores and NCAPS rankings warrants consideration
during this assessment process.

                        Relationship Between
                High Superfund Program (HRS) Score
              And High RCRA Program (NCAPS) Ranking




                      High                 High
                      HRS                  NCAPS
                      Score                Ranking




                                                 High NCAPS ranking
 High HRS score and                              and HRS not high.
 NCAPS ranking not high.      Both HRS score and        (17 sites)
                              NCAPS ranking were high.
      (45 sites)
                                    (7 sites)




As the Venn diagram above illustrates, 69, or 22%, of
the 313 statistically sampled sites had an HRS score
of 28.5 or more or were ranked “high” in the National
Corrective Action Prioritization System (NCAPS)–the
RCRA method of prioritizing sites. Forty-five of
these sites had an HRS score > than or equal to 28.5,
while 17 sites ranked high in NCAPS. However, only
7 of the 69 sites were a high priority in both programs
(HRS > than or equal to 28.5 and high NCAPS).

The differing assignments of site priorities, along with
the low program priority of the sites not in the
corrective action workload, suggests a re-
examination of the prioritization of sites is needed.

Finally, we suggest that Agency officials work
together with states to determine the current status of
the high priority sites. Using this information, EPA
and states could maximize cleanups and address the
“worst sites first.” As current cleanup status is
identified, RCRIS should be updated.

As Agency and state officials work together to
address the RCRA deferrals, we suggest a multi-


            10                                    Report No. 9100116
                 program approach, as provided for in EPA policy.
                 Using its deferral policy, EPA intended to maximize
                 cleanups by using a multi-program approach. The
                 policy provided for the use of combined resources
                 when it said “RCRA authorities may be used by
                 themselves or in conjunction with CERCLA removal
                 and enforcement authorities to initiate corrective
                 action or to continue actions already begun.” This
                 allows the use of CERCLA authority at non-NPL sites.
                 The policy also recognized that “deferred sites may
                 later be added to the NPL if corrective action is not
                 being taken.” To maximize cleanups, EPA and states
                 should share expertise, consider resources available,
                 and avoid duplication of efforts.

                 Because there were almost 2,000 sites deferred to
                 RCRA that are not in the corrective action workload, it
                 may be appropriate for OSWER to reinstitute
                 something similar to the Environmental Priorities
                 Initiative. OSWER officials have indicated a
                 willingness to revisit unaddressed sites. Whatever
                 method is developed, we are in agreement that sites
                 posing the greatest risk should be evaluated first.

RECOMMENDATION   The Acting Assistant Administrator for Solid Waste
                 and Emergency Response should:

                 2-1. Develop a method and procedures for EPA
                 regions and the states to use to evaluate deferrals
                 not in the RCRA corrective action workload, but
                 which may pose risk to human health and the
                 environment. (Note: Recommendations 3-1, 4-4, 4-6,
                 and 4-7 should be considered when developing the
                 method and procedures.)




                          11                            Report No. 9100116
                                                                       CHAPTER 3
                           MANY SITES WERE INAPPROPRIATE FOR DEFERRAL



                                                                              Of the 2,941 sites deferred from the Superfund
                 Of The Deferred Sites,                                       program, only 842 are in the corrective action
                  1846 Were Not In The
               Corrective Action Workload
                                                                              workload. As we will discuss in Chapter 4, 253 did
RCRIS C.A. Workload                                                           not appear in the RCRIS database. The remaining
       842
                                                                              1,846 sites (63 percent) were deferred to RCRA, but
  Status Unknown                                 Not In RCRIS C.A. Workload
                                                                              were not part of the corrective action workload.
         253                                               1846


                                Total: 2941                                    We took a closer look at sites not in the corrective
                                                                               action workload and found that in the four regions
                                                                              sampled, 67 percent of the deferrals were
                                                                              inappropriate because:
              Audit Reviewed 313 Sites
                   From Four Regions                                             (1) Decisions were made without sufficient
                                              Sample
                                                313
                                                                              communication between RCRA and Superfund
                                                                              program officials as to which authority would
                                                                              best address the site;
             Not Sampled
                 1533
                           Total: 1846
                                                                                 (2) Deferral guidance2 was lacking; and,

                                                                                 (3) There was either misinterpretation or
                                                                              inconsistent application of the NPL/RCRA
                                                                              policy and the Environmental Priorities Initiative
                  Majority Of Sampled Sites
                 Were Inappropriate For Deferral                                guidance3.
            Not Inappropriate
                  103                                                         The sampled sites have been in EPA’s inventory for
                                                Inappropriate
                                                                              about 17 years on average, and, according to RCRIS,
                                                    210
                                                                              less than one percent (2 of 313) of them have been
                                Total: 313
                                                                              cleaned up, despite the fact that a significant number
                                                                              of them may be NPL-caliber sites. One-hundred
                                                                              seven of 210 sites inappropriate for deferral had HRS
                                                                              scores and 29 of the 108 (26%) scored equal to or
                                                                              above 28.5. Because a site is not in the corrective


                                                                                      12                             Report No. 9100116
                    action workload does not mean that it does not pose
                    a threat. The examples discussed later in this
                    chapter demonstrate the need to determine the
                    current threat to human health and the environment
                    for sites that were inappropriate for deferral.

67% OF SITES        To review deferral decisions, we took a statistical
INAPPROPRIATE FOR   sample of sites not falling in the RCRA corrective
DEFERRAL TO RCRA    action workload in four regions. The regions in our
                    sample contained 1,388 of the 1,846 sites not in the
                    corrective action workload. By reviewing information
                    in Superfund files on which deferral decisions were
                    based and comparing that information to the
                    NPL/RCRA deferral policy and related EPA
                    guidance4, we concluded that approximately 67
                    percent of our sampled sites (210 of 313) were
                    inappropriate for deferral.

                    In general terms, most of the sites determined to be
                    inappropriate candidates for deferral had a change in
                    permitting status. For instance, a site may have been
                    a TSDF at the time RCRA was enacted, but then
                    changed status to a generator only, rather than
                    obtain a RCRA permit. This facility would be known
                    as a converter, and according to the NPL/RCRA
                    deferral policy, not an appropriate candidate for
                    deferral. Appendix 2 details the reasons why the 210
                    facilities were inappropriate for deferral.

                    The following page contains a table showing the
                    number of sites we sampled, the number we found to
                    be inappropriate for deferral, and the projection of
                    sites inappropriate for deferral to the universe.




                            13                            Report No. 9100116
                              Projection of Inappropriate Sites

                                                 Weighted
                                  Number of     Projection of
                     Sample       Inapprop.      Inapprop.
                      Size          Sites          Sites        Universe
                       313           210            1003          1388


                    As described above, 210 of the 313 sites not in the
                    corrective action workload were inappropriate for
                    deferral. While some of the remaining 103 sites may
                    have been appropriate for deferral at the time of
                    deferral, they may now be appropriate for
                    consideration under CERCLA, because they are not
                    in the corrective action workload and are not planned
                    to be addressed promptly. Appendix 3 details the
                    information on the 103 sites.

BETTER              We believe insufficient communication between
COMMUNICATION AND   Superfund and RCRA has contributed to the high
ADHERENCE TO        percentage of inappropriate deferrals. EPA’s
POLICY WOULD        “Guidance for Performing Preliminary Assessments
IMPROVE DECISIONS   Under CERCLA,” (EPA /540/G-91/013) recommends
                    that the Superfund site assessment contacts discuss
                    with RCRA officials whether or not to proceed with
                    Superfund investigative activities or to defer the site
                    to RCRA. However, our file reviews and interviews
                    with Superfund and RCRA regional officials have
                    shown that these decisions usually have been made
                    by Superfund staff, with only occasional input from
                    RCRA staff. RCRA, the amendments to it, the
                    regulations supporting it, and the guidance
                    explaining it, make up a voluminous and complex
                    body of knowledge which is not normally the area of
                    expertise of those Superfund officials who have been
                    making decisions as to whether cleanup can best be
                    effected under RCRA or CERCLA. The complexity of


                             14                            Report No. 9100116
the RCRA program would seem to necessitate
frequent communication on a site-by-site basis in
order to make good decisions about the
appropriateness and priority of the deferral.

Although the NPL/RCRA deferral policy was
published as a final rule in 1983 and amended in
1989, EPA did not issue guidance covering deferrals
of sites (cited above) until 1991. Sites have been
deferred from Superfund to RCRA, however, since
1983. While those inappropriate deferral decisions
that occurred prior to the guidance might have been
reduced had it been published sooner, we found no
evidence in the files referencing the guidance or its
decision-making technique. For instance, the
guidance included a “RCRA Eligibility Checklist” to
aid Superfund officials in making a determination
regarding site deferral eligibility. Yet, we found no
checklists or evidence of similar decision matrices in
the Superfund site assessment files.

Lastly, there was misinterpretation or inconsistent
application of the NPL/RCRA deferral policy and the
Environmental Priorities Initiative guidance. Under
the Initiative, Superfund resources were to be used
to perform enhanced preliminary assessments for
some unassessed RCRA sites. Once the
assessments were completed, at least one region did
not adhere to the NPL/RCRA policy. Our meetings
with RCRA and Superfund officials indicated
confusion over which sites should be deferred.
Superfund staff deferred facilities (back) to RCRA
that did not always meet the deferral criteria, such as
generators. One region’s Initiative agreement
stipulated that all facilities were to be deferred to
RCRA upon completion of the site assessments.
Because no consideration for the appropriateness of
the deferrals was given, this stipulation was
inconsistent with the NPL/RCRA deferral policy.



         15                            Report No. 9100116
DEFERRED SITES MAY   Of the 313 sites in our sample, we identified 210 as
NEED ATTENTION       inappropriate for deferral to RCRA. For some of
                     these sites we gathered additional information. Using
                     data from RCRIS we checked on current status and
                     progress toward cleanup. We found that the majority
                     of these sites had not been addressed beyond site
                     prioritization. In fact, only two of the 210 facilities had
                     been reported in RCRIS as having been cleaned up.

                     Almost half of the sites which were inappropriate for
                     deferral had no HRS score. For those sites that were
                     scored, 26% of them scored high enough to be
                     considered for listing on the NPL.

                     We made a further attempt to obtain current cleanup
                     information for more than one-third of the 210 sites.
                     We asked selected states in Regions 3 and 5 for the
                     current status of 79 sites in their regions that were
                     inappropriate for deferral. The 79 sites either had an
                     HRS score of 28.5 or higher, or had no HRS score.
                     States provided responses for 66 of the 79 sites.
                     States indicated that only 15 of the 66 sites had
                     RCRA corrective action underway, or state Superfund
                     or voluntary cleanup planned, underway, or
                     completed. It is unknown whether these cleanups
                     meet RCRA standards. The remaining 51 of 66 sites
                     may need cleanup.

                     In addition, while 41 of the 66 facilities had closed,
                     contamination could still exist from previous
                     operations. (We do not know whether closures were
                     before or after cleanup, or, if after, whether RCRA
                     cleanup standards were met for all cases.) Once the
                     Agency verifies that RCRA standards for these
                     facilities have not been met, RCRIS should be
                     updated to reflect the current status.

                     The sites that have not been addressed by EPA or
                     states may need attention. The two examples
                     presented below illustrate the effect of inappropriate
                     deferrals. Based on HRS scores, these sites could
                     have been considered for listing on the NPL at the
                     time of deferral. Instead, they were deferred


                              16                               Report No. 9100116
                (inappropriately) and archived from CERCLIS (in
                accordance with the archiving guidance5). Potential
                threats may exist to human health and the
                environment for the surrounding communities.

First Example   The first site was inappropriate for deferral because it
                was a facility that converted from TSDF status to
                generator status before deferral. According to the
                deferral policy, this site would not be eligible for
                deferral because a converter would not be a priority
                for the RCRA program.

                Nevertheless, this site was deferred to the RCRA
                program in 1995 after a Superfund contractor
                assessing the facility concluded that the facility was
                regulated under RCRA. Nowhere in regional files did
                we find evidence that Superfund officials coordinated
                with RCRA officials regarding the appropriateness of
                the deferral.

                Once deferred, the site was not included in the
                corrective action workload because the facility was
                not actively seeking a permit to operate as a TSDF.
                Even though the site was not in the workload, it was
                given a “high” priority ranking in NCAPS.

                According to a June 1992, Corrective Action
                Stabilization Questionnaire, lead contamination had
                migrated off site and was found in the closest of four
                residential wells located within one mile of the facility.
                The lead levels found in samples taken from the wells
                were four times higher than allowable tolerances
                under the Safe Drinking Water Act. Employees
                working at the facility (in 1995 there were 2,350),
                should be restricted from going in to the areas of
                contamination.

                The official completing the 1992 RCRA Stabilization
                Questionnaire recommended that as a stabilization
                initiative, EPA could reduce risks to human health
                and the environment by providing alternate water
                supplies to the four residences. It also recommended



                         17                              Report No. 9100116
                                 further investigation to define and characterize the
                                 impact of the facility on the groundwater.
First Example:
                                 We cannot tell from Superfund or RCRA files whether
– Not in the corrective action   the investigation was completed, the alternate water
       workload                  was supplied, the employees were restricted from
– High NCAPS priority            access to contaminated areas, or whether the
– HRS score above 28.5           employees have been affected by the contamination.
– Alternate water supply may     However, the state authorized for ensuring corrective
       be needed                 action at the facility indicated to us in December 1998
– Investigation may be           that it is devoting its limited resources, in concert with
       needed                    the EPA regional office, to those facilities that are
– Employees may be exposed       high environmental priorities and are in the corrective
       to contaminants           action workload. This facility, however, is not in the
                                 corrective action workload.

                                 The state also indicated that “...based on the RCRA
                                 corrective action priority status of most of the
                                 deferred facilities, [the state] cannot understand why
                                 most, if not all, of these facilities [deferrals in the state
                                 authorized for corrective action] were ever considered
                                 for deferral by U.S. EPA in the first place.”

  Second Example                 The second site was inappropriate for deferral
                                 because it would not be subject to corrective action.
                                 This site is not in the corrective action workload and
                                 as of September 1998, when we conducted our
                                 regional fieldwork, RCRA had not assigned an
                                 NCAPS priority to the site.

                                 In March 1995, Superfund officials deferred the site
                                 because it was a RCRA facility. As with the previous
                                 example, we found no evidence in the files that
                                 Superfund officials had coordinated with RCRA
                                 officials regarding the appropriateness of the deferral.

                                 The facility has a history of non-compliance. In order
                                 to perform a site inspection, state personnel had to
                                 obtain a search warrant. In addition, based on an
                                 anonymous call, state personnel witnessed the
                                 dumping of substances believed to contain cyanide,
                                 barium, and trichloroethylene into the ground near
                                 the facility’s plant. According to state personnel, no


                                           18                               Report No. 9100116
                                 cleanup action was ever taken because samples
                                 showed that the cyanide in the groundwater samples
Second Example:                  was below the levels needed to take an enforcement
                                 action. However, concerns that barium and
– Not in the corrective action   trichloroethylene may have contaminated the
       workload                  groundwater remain. The groundwater is the only
– No NCAPS priority              source of drinking water for the town (population
– HRS score above 28.5           10,000).
– History of non-compliance
                                 It appears that, just prior to the 1995 deferral
– Suspicion of groundwater
                                 decision, Superfund officials were considering
       contamination             performing a listing site inspection, the results of
– Groundwater is town’s only     which would be used to determine whether to list the
       source of drinking        site on the NPL. In January 1999, the same month in
       water (pop. >10,000)      which we received information about the status of the
                                 site, the state sent a letter to the facility requesting an
                                 investigation of the site.

                                 As the two sites demonstrate, inappropriately
                                 deferred sites can have serious environmental
                                 problems, yet not fall within the corrective action
                                 workload. Human health and the environment may
                                 still be threatened because neither EPA nor the
                                 states have identified beyond site prioritization the
                                 extent to which cleanup is needed.

    CONCLUSIONS                  Almost 3,000 sites have been deferred from the
                                 Superfund program to RCRA, yet less than one-third
                                 are in the corrective action workload. A four-region
                                 statistical sample of sites in the RCRA program but
                                 not in the corrective action workload has shown that
                                 67 percent of these sites were inappropriate for
                                 deferral. Decisions to defer can be improved by
                                 better coordination and communication between the
                                 two programs and better adherence to the
                                 NPL/RCRA deferral policy and guidance.

                                 The effect of these inappropriate deferrals can be
                                 serious. Twenty-six percent of the sites inappropriate
                                 for deferral and having HRS scores were potentially
                                 eligible for listing on the NPL. Yet RCRIS shows that
                                 less than one percent of these sites (2 of 210) have
                                 been cleaned up. The sampled sites have been in


                                          19                               Report No. 9100116
                  EPA’s inventory for an average of about 17 years.
                  The extent to which human health and the
                  environment may be threatened currently is unknown.


RECOMMENDATIONS   The Acting Assistant Administrator for Solid Waste
                  and Emergency Response should:

                  3-1. In cooperation with the states, assess the sites
                  that were inappropriate for deferral. Develop criteria
                  to determine which of them will be evaluated, update
                  site characterizations, prioritize the sites, and identify
                  the best legal authority and available resources to
                  effect cleanup.

                  3-2. Reemphasize the need for communication and
                  collaboration between Superfund and RCRA regional
                  officials prior to deferring sites from one program to
                  another. Restate the criteria for deferring sites, and
                  require regions to maintain written documentation (for
                  example, the deferral checklist) which shows that the
                  decision to defer has been agreed to by both
                  programs. Sites should not be considered deferred,
                  or coded as such in respective information systems,
                  until written acceptance of the proposed deferral(s)
                  by the receiving program is obtained.




                           20                              Report No. 9100116
                                                                                   CHAPTER 4
                            EPA DID NOT KNOW CLEANUP STATUS OF SOME SITES



           DEFERRED SITES                                                              Chapter 3 discussed sites in the RCRIS data base
           NOT IN RCRIS                                                                which were inappropriate for deferral to RCRA.
                                                                                       However, almost 10 percent (253) of the total number
                              Of The Deferred Sites,                                   of Superfund deferred sites were not found in the
                           Status Was Unknown For 253
                                                                                       RCRIS database. We attribute this to system
            RCRIS C.A. Workload
                  842
                                                                                       incompatibilities (between RCRIS and CERCLIS),
                                                                                       insufficient communication between the two
                                                      Not In RCRIS C.A. Workload       programs, and weak deferral procedures. As
           Status Unknown                                      1846
                253                                                                    discussed later in this chapter, not all of these sites
                                      Total: 2941                                      would be expected to be found in RCRIS because
                                                                                       they were not intended to be deferred to the RCRA
                                                                                       program. In addition, Agency officials indicated that
                                                                                       some of these sites may never have handled
                           Audit Reviewed 108 Sites
                             From Four Regions
                                                                                       hazardous wastes and would not appear in RCRIS.
                                                                                       We agree this is possible. However, information
                                                                                       found in the Superfund files for sites not found in
                     108
                            Sample
                                                  Not Sampled
                                                                                       RCRIS indicated that some of these sites were part of
                                                                145
                                                                                       the Initiative program or had notified EPA that they
                                                                                       handled RCRA hazardous waste. We also found
                                       Total: 253
                                                                                       misidentified sites that were handlers of RCRA
                                                                                       hazardous waste. While these sites were originally
                                                                                       not identified in RCRIS under one site identification
                                                                                        number, they were in RCRIS under another.
                Status Was Discovered For
             Many, But Not Most, Sites Sampled                                         If our four region sample of the sites not appearing in
                                                                                       RCRIS holds true nationwide, about 31 percent (34
         Different Identifier
                                            Deferred Elsewhere
                                                     1                                 of 108 sampled sites) of these sites have HRS
                  15
                                                                                       scores high enough to be potentially eligible for
                                                                                       listing on the NPL. Since these sites may still pose
                                                                      Status Unknown   risks to human health and the environment, they
Deferred To States                                                           58
        34                                                                             should be of continued federal interest. Yet EPA is
                                                                                       generally unaware of the status of cleanup, and is
                                     Total: 108                                        not monitoring cleanup progress. By following up at
                                                                                       the state level, we were able to get limited status
                                                                                       information on many of these sites.



                                                                                                21                            Report No. 9100116
                          The four regions we reviewed contained 154 of the
                          253 sites not appearing in RCRIS. We included 108
                          of them in our sample. By reviewing regional files
                          and automated systems, we were able to locate 50 of
                          the 108 sites as shown below.

                                        Disposition of Sampled Sites

                                      Disposition            Number of Sites

                           ID Number Changed                        15

                           Deferred to Another EPA Program          1

                           Deferred to States                       34

                           Unknown                                  58

                                          Total                    108




ID Number Changed         Fifteen (15) of the 108 sites did not retain the same
                          site identification (ID) numbers in RCRIS that they
                          had in CERCLIS. For example, adjacent properties
                          owned by the same company were given two site
                          identification numbers in CERCLIS. When the sites
                          were deferred and entered into RCRIS, RCRA
                          officials consolidated the sites into one and issued a
                          new site identification number. The 15 sites in this
                          category are being tracked in RCRIS, albeit under
                          new site identification numbers. Because there is no
                          crosswalk between the two automated systems,
                          Agency officials will have to manually search program
                          files to ensure that all deferred sites are accounted
                          for.

Deferred to Another EPA   One of the 108 sampled sites was deferred to the
Program                   Toxic Substances and Control Act (TSCA) program
                          for monitoring. In this case, the RCRA deferral code
                          was recorded in CERCLIS because there was no
                          code for deferring a site to another EPA program.




                                   22                           Report No. 9100116
Deferred to States   Thirty-four (34) of the 108 sites were intended to be
                     deferred to state, not RCRA, authorities. However,
                     there was no code in CERCLIS to indicate deferral to
                     states.

                     We identified the deferral to states coding problem in
                     the OIG audit report entitled, “State Deferrals: Some
                     Progress, But Concerns for Long-Term
                     Protectiveness Remain” (Report No. 8100234,
                     September 10, 1998). In response to this report, EPA
                     officials indicated that a code for state deferrals was
                     being developed. The fiscal 99/00 Superfund
                     Program Implementation Manual issued in July 1998,
                     indicated the development of the state deferral code.

                     Thirteen of the 34 state deferrals scored low enough
                     that no further remedial action would have been
                     planned. In these cases, a No Further Remedial
                     Action Planned (NFRAP) code should have been
                     entered in CERCLIS.

                     Seven of the 34 state deferrals were not scored.
                     Because of this, we cannot determine whether any
                     federal interest exists at these sites.

                     Regions 3 and 5 contained five of the seven
                     unscored sites. We followed up with nine states in
                     these regions. State officials indicated that two
                     cleanups were underway, the state had no
                     information on two of the sites, and the state did not
                     provide a response for the remaining site.

                     Fourteen of the 34 state deferrals scored high
                     enough (HRS score equal to or above 28.5) to merit
                     federal interest. The May 3, 1995, OSWER Directive
                     9375.6-11, entitled “Guidance on Deferral of NPL
                     Listing Determinations While States Oversee
                     Response Actions,” requires a written agreement
                     between EPA and the states for cleanup of sites
                     where a federal interest exists. The agreement would
                     specify the activities a state will perform and the
                     reduced level of oversight EPA would provide.
                     Before the May 1995, guidance, and the pilot state


                             23                              Report No. 9100116
deferral program that preceded it (from 1993-1995),
there were no provisions to defer sites to states
where a federal interest existed. Of the 14 state
deferred sites which scored high, 10 were deferred
prior to the pilot deferral program, 3 were deferred
after the guidance was published , and 1 had no
deferral date. We could not find any written
agreements for these 14 state deferrals.

The following example shows why a written
agreement is important. One of the Superfund
deferrals scored well above the minimum requirement
to be listed on the NPL and was located in a state not
authorized for corrective action. Superfund site
assessment personnel indicated that the state was
going to take the lead on cleaning up the site.
However, the state changed its priorities and shifted
resources to another state program. When the site
was deferred, the state appeared to have good
intentions to enforce cleanup, but according to the
EPA Superfund site assessment manager, the
cleanup has stalled. A written agreement would have
committed state resources for cleanup, established
cleanup milestones, and committed EPA to monitor
progress against the milestones. These assurances
might have prevented the cleanup being stalled.

We followed up on the status of these 14 sites with
high HRS scores. Information from state officials and
a state database showed that two sites had been
cleaned up, three cleanups were underway, and
three were in the inventory for cleanup. For the
remaining six sites, we either received no response
or found no information in the state database.

OSWER officials told us the sites were not formally
deferred to states and were incorrectly coded as
deferred to RCRA. Formal deferrals did not occur
because there were no written agreements. The
officials who put the deferral codes in the system
(coded as deferrals in CERCLIS due to the lack of a
state deferrals code) are not authorized to code sites
as a state deferral until a written state deferral


        24                             Report No. 9100116
agreement is in place. Therefore, even if a state
deferral code existed at the time, the sites should not
have been assigned the code until a written
agreement was in place.

Regional officials refer to sites that state and tribes
are working on but EPA has not yet listed or given up
its right to list as “informal deferrals.” In addition to
the 14 sites we found which merit federal interest,
GAO reported in its report entitled “Unaddressed
Risks at Many Potential Superfund Sites”
(GAO/RCED-99-8, issued November 1998) on
approximately 800 similar sites in CERCLIS.
Although states, tribes, or PRPs may be addressing
the sites, they still merit federal interest. NCP
requirements do not apply to the sites identified in
GAO’s report and ours. Thus, the preference for
permanence and treatment, the five-year review, and
community involvement may not be afforded for these
NPL-caliber sites. Our 1998, report on State
Deferrals (Report No. 8100234, September 10, 1998)
raised this concern for sites that were formally
deferred to states. In that report, we found that a
majority of the remedies were containment, rather
than permanent or treatment solutions, and only a
few had a requirement similar to the five-year review.
Thus, remedies may not remain protective over the
long term.

Agency officials told us that they cannot require
states to follow NCP requirements for non-NPL sites.
They also said that some states have indicated they
will not report site progress to EPA. Agency officials
could indicate in CERCLIS that states and tribes were
remediating sites, and that they have already begun
to track this information.

EPA officials also told us that they do not have the
resources to monitor the ongoing progress of
hundreds or potentially thousands of non-NPL sites.
They are currently focused on addressing sites they
plan to list or have listed on the NPL.



         25                             Report No. 9100116
                        We understand the Agency’s position concerning the
                        states. We also recognize that states and tribes are
                        cleaning up some of these sites. However, we are
                        concerned about whether all cleanups at NPL-caliber
                        sites or sites that merit federal interest will be similar
                        to NPL cleanups in terms of community involvement,
                        remedy selection and long-term protectiveness of
                        remedies.

Status Unknown to EPA   Documentation in EPA regional files did not indicate
                        the disposition of the remaining 58 of 108 sites in our
                        sample. These sites were coded generally in
                        CERCLIS, indicating deferral to RCRA. However,
                        neither RCRA officials nor we were able to identify
                        the sites by identification number or name as being in
                        the RCRA program. From documentation obtained
                        from Superfund files, we know that 53 percent of the
                        sites that were scored in our sample of status
                        unknown sites, scored high enough to be considered
                        for listing on the NPL.

                                  HRS Scores For Status Unknown

                                       HRS >      HRS <      No HRS
                         Status        or = to     28.5       Score        Total
                                        28.5
                         Unknown         15         13          30          58

                        While EPA could not provide information about the
                        disposition or cleanup status of these 58 sites, we
                        found that relevant states were able to supply us with
                        additional information. We chose to pursue current
                        status in two of the four regions in our sample. We
                        selected Regions 3 and 5 because no states in
                        Region 3 had corrective action authority, while, in
                        contrast, all states in Region 5 had corrective action
                        authority.

                        Regions 3 and 5 contained 36 of the 58 status
                        unknown sites. Selected states in Regions 3 and 5
                        provided cleanup status on 17 of the 36 sites.



                                  26                             Report No. 9100116
Cleanup was complete or underway for five of these
sites. Cleanup had not begun, but the site was in the
state inventory for 11 sites. States had no
information on one site. The following table depicts
these 17 sites based on whether they are NPL-caliber
or not.

  Status and Potential NPL Eligibility of 17 Sites

                HRS       HRS        HRS
 Status        > or =    < 28.5    Unknown        Total
                28.5
 Cleanup
 Complete/      3           0       2              5
 Underway
 Site in        3           2       6             11
 Inventory
 No Info.                           1               1

The 58 sites in the status unknown category are not
being tracked in RCRIS (at least not under their
CERCLIS site identification number). Many of them
are no longer being tracked in CERCLIS either
because they have been archived. Of the 58 status
unknown sites, 45 have federal interest (HRS score
equal to or above 28.5) or no HRS score.


  Status Of Sites With Potential Federal Interest

                      NPL
                    Eligible -
 CERCLIS            HRS > or      No HRS
 Status              = 28.5       Scores        Totals
 Active                 7           3             10
 Archived               8           27            35
 Totals                 15          30            45



          27                             Report No. 9100116
                    The October 1996 CERCLIS archiving guidance says
                    that “Sites which will be addressed under
                    RCRA...should also be archived (by definition, no
                    further Superfund interest should exist at these
                    sites).” Three of the four regions in our sample
                    archived most of their sites after deferral.

                    One Regional office took a conservative approach to
                    archiving sites. During our review, Region 2 officials
                    told us they did not archive sites until they were
                    “absolutely” sure that no further CERCLA action was
                    needed at sites. In fact, Region 2 officials were going
                    through a process to check with states and other
                    programs, including RCRA, to determine whether
                    cleanup was needed or occurring under those
                    authorities before archiving the sites. Thus, even
                    though some of the Region 2 deferrals did not appear
                    in RCRIS, at least one program (Superfund) retained
                    lead authority for ensuring that environmental
                    problems were addressed.

COMMUNICATION AND   The Superfund Program Implementation Manual
PROCEDURES NEED     indicates that a “D” should be entered in CERCLIS
STRENGTHENING       when a site is deferred to RCRA, but does not
                    discuss how the deferral is to occur. The September
                    1991, “Guidance for Performing Preliminary
                    Assessments Under CERCLA” advises Superfund
                    officials to notify the site assessment contact “who
                    will discuss the situation with representatives of the
                    RCRA program and decide whether to proceed with
                    CERCLA investigative activities.” While this
                    guidance addresses the need for communication with
                    RCRA officials on a site-by-site basis, it does not
                    detail the actual transfer and acceptance process.

                    Superfund officials told us that they reviewed site
                    documentation and coded sites in CERCLIS with a
                    “D” if they decided to defer the sites. They also told
                    us that they communicated informally with RCRA
                    officials. We did not see any documentation of these
                    informal discussions during our Superfund file
                    reviews, nor did we find any receipt or
                    acknowledgment of acceptance of lead authority in


                            28                             Report No. 9100116
              RCRA files. Superfund officials in one region told us
              that they sent a list of sites that they intended to defer
              to RCRA and gave those officials 30 days to review
              and comment on the proposed deferral actions.
              Since they got no response in the 30-day time period,
              they deferred all the sites to RCRA.

              Because CERCLIS and RCRIS do not interface,
              RCRA officials would be unaware of lead authority for
              a site being transferred to them without discussion
              and agreement between offices. As discussed in
              Chapter 2, enhanced communication on a site-by-site
              basis is necessary to ensure that sites are placed
              with the program having the legal authority and
              resources to effect cleanup at the earliest
              opportunity.

CONCLUSIONS   Almost 10 percent of the total number of sites
              deferred from Superfund to RCRA were not found in
              the RCRIS data base. We attribute this discrepancy
              to data system incompatibilities (between RCRIS and
              CERCLIS), insufficient communication between
              officials in the two programs, and weak deferral
              procedures. In addition, some of these sites were
              never intended to be deferred to the RCRA program.
              The number of sites not appearing in RCRIS are
              shown below by region.

                             Sites With Status Unknown
                             Region Number Of Sites
                                01             14
                                02             33
                                03             82
                                04             36
                                05             27
                                06             22
                                07             24
                                08              2
                                09             12
                                10              1
                            Total              253

                       29                              Report No. 9100116
                  If our sampling of four regions is consistent among all
                  regions, we would expect Superfund and RCRA
                  program officials to be able to locate about half of
                  these sites through regional file review. The other
                  half may require coordination with state officials.
                  Many of the sites we followed up on were in state
                  inventories, although EPA does not know their
                  cleanup status.

                  It is important that EPA account for all of these sites.
                  In the group of sites not appearing in RCRIS, more
                  than 53 percent of the scored sites had an HRS score
                  equal to or above 28.5. Not only would they be
                  potentially eligible for listing on the NPL, but they
                  may still pose significant risk to human health and the
                  environment. For these reasons, EPA needs to
                  ascertain the status of these sites and monitor
                  cleanup progress.

RECOMMENDATIONS   We recommend that the Acting Assistant
                  Administrator for Solid Waste and Emergency
                  Response instruct Superfund, and RCRA regional
                  officials as appropriate, to:

                  4-1. Add a code in CERCLIS for deferring sites to
                  other EPA programs.

                  4-2. Change the status of the 13 sites with low HRS
                  scores in CERCLIS to reflect the NFRAP designation
                  rather than deferral to RCRA.

                  4-3. Revise CERCLIS to reflect the appropriate
                  status of the 14 sites scoring equal to or above 28.5
                  in the HRS that were incorrectly coded as deferred to
                  RCRA.

                  4-4. Delay archiving sites until OSWER develops a
                  policy to determine whether state or tribal cleanups
                  are adequate. Include as a prerequisite to archiving,
                  a requirement for five-year reviews or some
                  comparable process for sites where hazardous
                  substances have been left on site so protectiveness
                  of remedies can be assured over the long term.


                          30                              Report No. 9100116
4-5. Enter into written agreements when sites of
federal interest are deferred to states.

4-6. Determine whether the sites that were not
scored but were deferred to states merit federal
interest, and proceed with recommendation 4-2 or 4-3
and 4-4 and 4-5 as appropriate.

4-7. Determine the appropriateness of the deferral
(see Chapter 2 for guidance and discussion) for the
58 status unknown sites. After coordination with
RCRA and state officials, either defer and update
RCRIS accordingly, assess for potential listing on the
NPL, or retain and monitor state cleanup progress in
CERCLIS.

4-8. Adjust the active/archived status in CERCLIS as
necessary.




        31                            Report No. 9100116
                    APPENDIX 1
    SCOPE, METHODOLOGY, AND PRIOR AUDIT COVERAGE




SCOPE AND METHODOLOGY   We conducted this audit from March 1998, to January
                        1999. To accomplish the objectives, we conducted
                        fieldwork in Headquarters OSWER and in Regions 2,
                        3, 5, 9. OSWER officials provided us with the
                        universe of sites Superfund officials deferred to the
                        RCRA program. We analyzed this CERCLIS data
                        and selected the four regions based on the total
                        number of deferrals, the status of state corrective
                        action authority, and the number of sites not
                        appearing in RCRIS. Headquarters OSWER officials
                        provided input for the regions we selected.

                        An OSWER official provided us with a CERCLIS 3
                        listing of 2,941 deferrals to RCRA as of
                        March 6,1998. We provided the list of deferrals to
                        RCRA officials to analyze and tell us which sites were
                        in RCRIS and their status in RCRIS. In April 1998,
                        RCRA officials analyzed the data and divided the
                        sites into four groups: (1) sites that had been
                        deferred and fell into the corrective action workload,
                        (2) sites that were subject to corrective action but
                        were not in the corrective action workload (subject to
                        sites), (3) sites that were not subject to corrective
                        action and were called RCRA handlers, and (4) sites
                        that had been deferred but did not appear in the
                        RCRIS database. We chose not to review the
                        corrective action workload sites because GAO had
                        recently performed a review of this population in a
                        report entitled,”Progress Under the Corrective Action
                        Program Is Limited, But New Initiatives May
                        Accelerate Cleanups,” (GAO/RCED-98-3) in October
                        1997 and we believe it appropriate to give the Agency
                        time to address the recommendations.




                                32                            Report No. 9100116
For the three remaining groups, the sites subject to
corrective action, the RCRA handlers, and the sites
not in RCRIS, we selected a random sample in each
group in each region for file reviews. While we
selected separate samples in the subject to and
RCRA handlers groupings, we reported on them as
one group in this report because we found sites that
were subject to corrective action in the RCRA
handlers group.

For our randomly selected sites, we reviewed
Superfund site assessment files for discovery dates
(dates that EPA became aware of the sites),
preliminary assessments of environmental conditions
and site inspections, deferral documentation, HRS
scoring, and other site assessment information. We
also reviewed selected RCRA corrective action files
for evidence of progression of cleanup of the sampled
facilities where the HRS scores for the facilities were
not completed or were equal to or greater than 28.5
(potentially eligible for NPL consideration) or where
the sites did not appear in the RCRIS database. We
also looked for evidence of the decision to defer and
acceptance of deferral. We interviewed HQ RCRA
and CERCLA staff and managers. We also spoke
with regional officials responsible for the deferral
process in the RCRA and CERCLA programs in
Regions 2, 3, 5, and 9 regarding the controls over the
deferrals to RCRA. We also reviewed removal files
for selected sites to find out whether immediate risks
at certain sites had been addressed. We also
attended a regional decision team meeting in
Region 2 which included Superfund officials. We
identified which states or territories were authorized
for corrective action and which sites were subject to
corrective action according to the Agency’s definition
of what it means to be subject to corrective action.
An Office of General Counsel opinion indicates that
the Agency has the ability to have facilities conduct
corrective action if they have, had, or should have
had interim status. Interim status, simply stated,
refers to the status a facility holds between



        33                             Report No. 9100116
application and receipt of a RCRA permit. Interim
status is granted by a state or EPA.

Concurrent with this audit, GAO was conducting an
audit on sites awaiting listing to the NPL. GAO’s
audit is related to ours because some of the sites that
were deferred to RCRA remained active in CERCLIS
and would have been included in their population and
because the recommendations may be similar in
nature. The audits differ because most of the sites
that were deferred to RCRA were not in GAO’s
population and because GAO’s primary goal was to
try to determine how many sites may ultimately be
placed on the NPL and to gather detailed information
on the sites that remained potentially eligible for the
NPL. For the purposes of our review, we only sought
to determine whether the Agency’s deferral program
objective was achieved, whether deferrals were made
in accordance with the policy, and whether
procedures for deferring sites from one program to
another were effective. Because our purpose was
not to determine whether any sites should be added
to the NPL, we did not gather the same information as
GAO did for their review. During our review, we
coordinated with GAO to avoid duplication of efforts.
GAO issued its audit reports entitled, ”Unaddressed
Risks at Many Potential Superfund Sites”
(GAO/RCED-99-8) and “Information on Potential
Superfund Sites,” (GAO/RCED-99-22) in November
1998.

At the commencement of our audit, we also
considered reviewing sites that had been deferred
from RCRA to Superfund. We performed limited work
in Region 2, but excluded them from our audit scope
because there was no commonality between these
deferrals and the sites deferred to RCRA and
because of limited resources. We may consider
further work on these deferrals at some future date.
We also reviewed 7 NPL sites and 27 sites
deproposed from the NPL that were deferred to
RCRA. We chose not to report on these sites as they
generally appeared to be progressing.


        34                             Report No. 9100116
                       We reviewed Federal Managers Financial Integrity
                       Act documentation related to the audit objectives.
                       We did not evaluate all of the controls over RCRIS
                       data, but we sought to verify data in RCRIS for
                       selected sites by asking state officials for status of
                       cleanup of facilities. We also attempted to verify the
                       accuracy of RCRIS corrective action data by
                       reviewing selected RCRA files. Like GAO, we did not
                       validate state responses by performing site visits or
                       file reviews because our recommendations will
                       include state participation in ensuring that human
                       health and environmental risks have been or will be
                       addressed.

PRIOR AUDIT COVERAGE   The OIG issued an audit report in January 1994,
                       entitled, “Program Enhancements Would Accelerate
                       Superfund; Site Assessments and Cleanup” (Report
                       No. 4100180). This report evaluated many of the
                       sites then awaiting listing to the NPL and potential
                       actions for addressing the backlog. One of the
                       recommendations was that the Agency consider
                       deferring sites to other federal authorities. Agency
                       officials generally agreed with these
                       recommendations.

                       GAO issued an audit report in October 1997, entitled,
                       “Progress Under the Corrective Action Program Is
                       Limited, But New Initiatives May Accelerate
                       Cleanups” (GAO/RCED-98-3). This report evaluated
                       the cleanup completions of the corrective action
                       workload in the RCRA program. This report
                       concluded that, “the step by step process for cleanup
                       is drawn out and cumbersome and the cost of
                       implementing it discourages companies from initiating
                       more cleanups. Protracted disagreements among
                       EPA, the states, and affected companies over the
                       cleanup standards to be met and the methods used to
                       meet them have also delayed cleanups. Both of
                       these factors can contribute to the economic
                       disincentives that companies face in performing
                       cleanups. Furthermore, these two problems are
                       exacerbated by the limited resources EPA and the
                       states have for implementing the [Corrective Action]


                               35                            Report No. 9100116
program.” GAO generally recommended that EPA
reform the program to make it more streamlined and
consistent nationwide. EPA generally agreed to
these recommendations.




        36                          Report No. 9100116
             APPENDIX 2
DETAILS OF SITES INAPPROPRIATE FOR DEFERRAL




               Using a weighted projection, 67 percent, or 1003 of
               the 1,388 sites in the sample universe were
               inappropriate for deferral. (210 of the 313 sampled
               sites were facilities that were inappropriate for
               deferral to RCRA.) This appendix describes the
               seven categories of sites that were inappropriate for
               deferral. The table below summarizes the categories
               we identified, the number of sites in each category,
               and the corresponding projection

                 PROJECTION OF SITES INAPPROPRIATE FOR
                              DEFERRAL

                   Type of           Number           Weighted
                Inappropriate         Found         Projection to
                   Deferral                           Universe
                  Sites That
                  Converted
                    Before
                   Deferral             69                254

                 Sites That
                 Converted
                After Deferral           9                20

                    Other
                  Converted
                    Sites
                  (Conversion or
                   Deferral Date
                    Unknown)            96                585

                 Non- or Late
                   Filers                8                33



                         37                           Report No. 9100116
    Type of             Number            Weighted
 Inappropriate           Found          Projection to
    Deferral                              Universe
   Protective
     Filers                22                 80

   Generators               6                 31
   Pre-HSWA
   Permittees               0                  0

     Totals               210                1003


The first three categories of sites that were
inappropriate for deferral were converters.
Converters are facilities that at one time treated or
stored RCRA Subtitle C hazardous waste but have
since converted to generator-only status or closed.
EPA or the states granted this change of status. The
first category are those sites that converted before
deferral, and the second category are those sites that
converted after deferral. The third category are
converted sites where the conversion or deferral date
was unknown. While converters remain technically
subject to RCRA corrective action, Agency officials
believed that deferral of converters was not
appropriate. Because they were no longer active
TSDFs, they were not a priority for prompt corrective
action under RCRA. The Agency believed
converters, should be placed on the NPL to ensure
prompt corrective action, when certain listing criteria
are met.

We identified eight facilities in the fourth category of
sites inappropriate for deferral, non- or late-filers.
Non- or late-filers did not file or filed late for a RCRA
permit and have little or no history of compliance with
RCRA. Though these sites may be subject to RCRA
corrective action, EPA decided that these facility
owners generally may not have the ability to assure
prompt compliance with RCRA standards. As a


          38                              Report No. 9100116
result, EPA decided that it is not appropriate to defer
non- or late-filers to RCRA.

Twenty-two sites were found in the fifth category of
sites inappropriate for deferral: protective filers.
Protective filers are facilities that filed as a TSDF as a
precautionary measure, but were determined by a
state or EPA not to be a TSDF. Protective filers are
not subject to RCRA subtitle C; therefore, RCRA
cannot order a site to take corrective action except
where hazardous waste has caused an imminent and
substantial endangerment to human health or the
environment.

Six of our sampled sites were in fact generators and
comprised the sixth category of sites inappropriate for
deferral. Generators are not subject to RCRA
corrective action and, according to the policy, would
continue to be placed on the NPL.

Though we did not identify any, the seventh category
of sites that were inappropriate for deferral were sites
holding permits before the enactment of HSWA.
Such facility owners had permits that predated
corrective action requirements and would not agree
to a voluntary reissuance of the permits to include
such requirements.




          39                              Report No. 9100116
                 APPENDIX 3
INFORMATION ON SITES NOT INAPPROPRIATE FOR DEFERRAL




                   During our exit conference, Agency officials requested
                   that we characterize the sites that we found not to be
                   inappropriate for deferral. The chart below describes
                   the results of that characterization. For all of the 103
                   sampled sites below, we found insufficient information
                   in the files to conclude that the sites were
                   inappropriate for deferral based on the policy.

                      Description of 103 Sites Not Inappropriate for
                                         Deferral

                    Characterization                    Number
                    TSDF Status Unclear                    46
                    Closed and Requested                   19
                    Change of Status But No
                    Approval Found
                    Facilities Undergoing                  14
                    Closure
                    Interim Status Facilities              16
                    Facilities Filed Part A                 4
                    and B But Permit Not
                    Yet Received
                    Permitted                               2
                    EPA Discussing TSDF                     2
                    Status with Facility
                       Total                               103




                            40                             Report No. 9100116
For the first 46 sites, the status of these facilities was
unclear from the documentation we reviewed during
fieldwork. In these cases, it was unclear whether
facilities notified or filed and were considered
generators or TSDFs.

Thirty-three (33) of the 103 sites that were in the
“Closed and Requested Change of Status But No
Approval Found” or “Facilities Undergoing Closure”
groups were moving toward closure or conversion to a
status other than TSDF. These sites would eventually
be appropriate for consideration under CERCLA since
they will likely convert and are not in the corrective
action workload.

The 16 sites that appeared to be in interim status, the
four facilities that filed both parts of the RCRA permits
to be TSDFs but, based on the documentation we
obtained, had not yet received their permits, and the
two permitted facilities would be appropriate for
deferral. These facilities should be in the corrective
action workload because, according to the
documentation we obtained, they are seeking or had
obtained permits to operate as TSDFs.

EPA was discussing the TSDF status of the final two
sampled sites, according to documentation we
obtained. Until EPA resolved the TSDF status of
these two facilities, we cannot comment on the
appropriateness of these two deferrals.




         41                               Report No. 9100116
                               APPENDIX 4
               AGENCY RESPONSE AND OIG EVALUATION




AGENCY RESPONSE

MEMORANDUM

SUBJECT:      Response to Draft OIG Report Superfund Sites Deferred to RCRA,
              Audit Report E1SFF8-11-0006-DRAFT

FROM:         Timothy Fields, Jr. (Signed March 23, 1999)
              Acting Assistant Administrator

TO:          Michael Simmons
             Deputy Assistant Inspector General for Internal Audits
                Office of the Inspector General

This memorandum transmits the Office of Solid Waste and Emergency Response’s
(OSWER) comments on the subject draft audit report by the Office of the Inspector
General (OIG). We appreciate the OIG’s thorough review of the process of deferring
Superfund sites to RCRA; we feel the audit findings and recommendations will be
helpful in improving the efficiency of the deferral process.

In a March 4, 1999 meeting with the OIG, staff from both the Superfund and RCRA
programs raised issues regarding various aspects of the draft report. In follow-up to that
meeting, OSWER provided informal comments on the draft. We received a revised draft
on March 17 which incorporated many of our preliminary comments. Please note that
this written response does not address many of the minor comments discussed during
the March 4 meeting or those submitted prior to the revision of the draft report. Rather,
it addresses larger issues concerning the presentation of the OIG’s findings, and the
assumptions made during the audit.

The draft audit report identifies discrepancies between Superfund Hazard Ranking
System (HRS) scores and RCRA National Corrective Action Prioritization System
(NCAPS) rankings for the sites deferred to RCRA. The OIG concluded that a re-
examination of the prioritization of sites is needed as a result of these discrepancies.
However, both the Superfund and RCRA programs agree that there are fundamental



                                            42                             Report No. 9100116
differences between the HRS and NCAPS ranking systems that do not support
comparisons of a score or ranking. The HRS generates a numerical score which must
be above a certain threshold to warrant Federal Superfund interest, while NCAPS
prioritizes a site relative to other RCRA sites and takes into account specific solid waste
management units that are not addressed by the HRS. Furthermore, NCAPS rankings
are updated more frequently than HRS scores to reflect current site conditions.
Therefore, priority ranking under RCRA may decrease as a result of response actions
taken at a site while the HRS score will remain the same. It is important to note in the
final audit report that these prioritization systems were developed for very different
purposes and may not necessarily yield comparable results at sites scored under both
systems.

The OIG states in the draft report that less than 2 percent of the deferred sites have
been “cleaned up.” This term is rather ambiguous and could refer to several different
types of site conditions. We would like this to be clarified in the final report so that the
entire statement reflects the actual status of those sites. Most importantly, what
standards were applied in order to make the determination that the remaining 98
percent have not been “cleaned up”?

In the draft report, the OIG suggests that the Superfund site assessment process will be
the primary tool for re-evaluating the sites that were inappropriately deferred to RCRA.
Similarly, the draft report implies that the HRS will be the primary tool for prioritization
and that Superfund decisions will be made at all of these sites. However, the OIG
should recognize that if these sites are to be re-evaluated under Superfund, it is unlikely
that all of them will be, or will need to be, cleaned up with Superfund resources. There
are currently more than 10,000 sites in the active CERCLIS inventory needing
assessment decisions, and on average, an additional 400 sites come to EPA’s attention
each year. Any inappropriate deferrals that return to Superfund for reassessment will be
prioritized in the context of all other active sites needing assessment, and according to
the threat the site poses to human health and the environment. We believe EPA has
already conducted a Preliminary Assessment at virtually all of the sites OIG has
included in the draft report; field sampling and Site Inspections have also been
conducted at a large percentage of these sites. OSWER would like to note that
Superfund decisions have been made at over 35,000 sites since the program was
created, however, only 4 percent (less than 1,500 sites) have been placed on the
National Priorities List for long-term cleanup under the Superfund program.

Chapter 4 of the draft discusses OIG’s inability to locate the 253 “Status Unknown”
facilities in the RCRIS system. While it is possible that this resulted in part, as
suggested by OIG, from system incompatibilities, OIG’s overall premise that each of the
253 should have appeared in RCRIS may be flawed. RCRIS contains data on over
250,000 facilities that, by the Agency’s records, ever handled hazardous waste. The



                                              43                             Report No. 9100116
absence of any of the 253 from RCRIS could be explained by the fact that they never
handled hazardous waste. Chapter 4 needs to acknowledge this possibility.

After reviewing the draft report, OSWER has some suggestions on presenting the data
in a format that readers may more easily comprehend. A possible method of clarification
would be the use of graphics, such as pie charts or graphs, to represent the most
complex data (i.e., to more clearly state when the report is referring to a random sample,
as opposed to the four-Region sample or the total National universe of deferrals).
Another possibility may be a “data glossary” as an additional appendix, so that any
figure in the report could be easily defined.

After reviewing the audit findings, OSWER notes that the draft report clearly indicates a
need for improved communication and coordination between the Superfund and RCRA
programs in all EPA regional offices. We are prepared to reassess many of the site
management decisions identified by the audit to ensure that EPA and State agency
response efforts provide the highest level of protection of human health and the
environment.

Thank you for providing the opportunity to comment on the draft report. If you have any
questions regarding our written response, please contact Elizabeth Harris, OSWER
Audit Liaison, at (202) 260-7323.

cc: Sharon Hallinan
    Liz Harris
    Jennifer Griesert
    Anne Andrews
    Barbara Braddock
    Bill Samuel
    Judy Vanderhoef
    Barry Parker
    Tina Lovingood

OIG EVALUATION

The Acting Assistant Administrator for Solid Waste and Emergency Response indicated
that there are fundamental differences between the HRS and the NCAPS ranking
systems that do not support comparisons of a score or ranking. The Acting Assistant
Administrator requested that we note in the final report that these prioritization systems
were developed for very different purposes and may not necessarily yield comparable
results at sites scored under both systems.

As requested, we added language to the report to explain why these scores might be
different. However, the NCAPS system was based on the HRS, and while their


                                            44                             Report No. 9100116
purposes might be different, they are both indicators for potential threats to human
health and the environment. Accordingly, until the current environmental threat posed
by sites with different scores can be determined, the Agency cannot be certain of
whether there is cause for concern. To assist the review process, we will provide
OSWER staff with the specific data for sites with differing scores.

The Acting Assistant Administrator also commented that the draft report suggested that
the Superfund site assessment process will be the primary tool for re-evaluating the
sites that were inappropriately deferred to RCRA. He also believed the draft report
implied that the HRS will be the primary tool for prioritization and that Superfund
decisions will be made at all of these sites.

The OIG did not intend to imply that Superfund site assessment will be the primary tool
for reassessment of sites. In fact, in the draft report, the OIG supported the NPL/RCRA
policy when it suggested a multi-program approach to addressing sites. We also
suggested a cooperative approach to include states in any evaluations of sites that
would take place. The OIG recognizes the limited resources of Superfund, RCRA and
state programs. We also recognize that legal authority is a factor in any decisions EPA
may need to make for reassessing sites when necessary. We believe that both
resources and legal authority must be considered when determining how best to
proceed. For example, just because a particular state may have legal authority does not
mean it has the resources to address the sites.

We also recognize, as OSWER staff pointed out at the exit conference, that the
corrective action workload is the priority for RCRA and is the reason many of these sites
may not have been addressed. For EPA RCRA officials to address these sites would
take resources away from those needed to achieve RCRA’s GPRA goal of addressing
the corrective action workload.

The OIG also agrees with the Acting Assistant Administrator that not every site may
need to be reevaluated, and that those that do need reevaluation should be prioritized
for any potential listing to the NPL. Preliminary assessments, and in some cases, site
inspections or other assessments have been conducted for these sites. However, we
found that much of the data is several years old, and OSWER and state officials should
give some consideration to increases in potentially affected populations (or targets) and
uses of the potentially affected properties.




                                           45                             Report No. 9100116
                        APPENDIX 5
                           DISTRIBUTION




OSWER Audit Liaison (5103)
Director, State and Tribal Site Identification Center (5204G)
Deputy Director, State and Tribal Site Identification Center (5204G)
Deputy Director, Office of Solid Waste (5301W)
Acting Director, Permits and State Programs Division (5303W)
Associate Director, Permits and State Programs Division (5303W)
Chief, Corrective Actions Program Branch (5303W)
Superfund Reforms Coordinator (5204G)




                                    46                            Report No. 9100116
                                 APPENDIX 6
                                       ENDNOTES




1. Sites are coded in RCRIS with the Corrective Action Event Code “CA999," or “CA Process
Terminated.”
   In addition, in its October 1997 report entitled, “Progress Under the Corrective Action
Program Is Limited, But New Initiatives May Accelerate Cleanups” GAO defined, and in its
response EPA did not disagree that, using the code CA999 meant that cleanup was completed.
   If the CA999 code was not used, then cleanup was not completed, for the purpose of defining
the remaining 98 percent of sites.

2. “Guidance for Performing Preliminary Assessments Under CERCLA,” EPA/540/G-91/013,
September 1991, pages 16-19.
   “Superfund Program Implementation Manual, Fiscal Year 99/00,” June 1998, pages A-6 to
A-24.

3. OSWER Directive 9932.0, “Method for Prioritizing CERCLA Preliminary Assessments at
RCRA Facilities,” May 31, 1988.
     OSWER Directive 9932.1, “Guidance for Environmental Priorities Initiative (EPI) Facilities in
the Superfund Pre-Remedial Program,” January 31, 1989.
     Memorandum from Mary A. Gade, Deputy AA for OSWER, “Environmental Priorities
Initiative - Headquarters Responsibilities and Upcoming Activities,” February 11, 1991.

4. Memorandum from J. Winston Porter, AA for OSWER and Courtney M. Price, AA for
OECM, “Interpretation of Section 3008(h) of the Solid Waste Disposal Act,” December 16,
1985.

5. Memorandum from Stephen D. Luftig, Director, Office of Emergency and Remedial
Response, and Michael H. Shapiro, Director, Office of Solid Waste, “Removing RCRA Facilities
from CERCLIS,” June 21, 1995.
    Memorandum from Larry G. Reed, Director, Hazardous Site Evaluation Division and Linda
Boornazian, Director, Policy and Program Evaluation Division, OSWER, “Refining CERCLIS
Archive Determinations,” July 6, 1995.
    Memorandum from Robert Myers, Acting Chief, Site Assessment Branch, OSWER
“Transmittal of CERCLIS Archive Materials: Site Lists and Guidelines,” July 14, 1995.
    Guidance entitled “CERCLIS Archive Guidelines,” October 1996.
    Memorandum from Stephen D. Luftig, Director Office of Emergency and Remedial
Response, “Archiving CERCLIS Sites,” November 13, 1996.


                                               47                               Report No. 9100116
